No. 19-

 

IN THE
Supreme Court of the United States

ACTAVIS LABORATORIES FL, INC.,

Petitioner,
Vv.

NALPROPION PHARMACEUTICALS, LLC

Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Federal Circuit

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I, William M. Jay, counsel of
record and a member of the bar of this Court, certify this 13th day of March 2020
that the Petition for a Writ of Certiorari contains 8,120 words, excluding the parts

of the document that are exempted by Supreme Court Rule 33.1(d).

‘

March 13, 2020 WM ar
William M. Jay
G

OODWIN PROCTER LLP
1900 N Street, N.W.
Washington, DC 20036
wjay@goodwinlaw.com
(202) 346-4000

Counsel for Petitioner
